                        The Effectiveness of the
                   Taxpayer Assistance Center Program
                          Cannot Be Measured

                                     July 2005

                       Reference Number: 2005-40-110




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     July 22, 2005


      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


      FROM:                        Pamela J. Gardiner
                                   Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - The Effectiveness of the Taxpayer
                                   Assistance Center Program Cannot Be Measured
                                   (Audit # 200440044)


      This report presents the results of our review of the process the Internal Revenue
      Service (IRS) uses to determine the types, times, and locations of services it provides
      taxpayers that seek face-to-face assistance.
      In a report issued in April 2001, the Joint Committee on Taxation conducted a study on
      the complexity of the tax law and found that, at that time, the Internal Revenue Code
      (I.R.C.) consisted of nearly 1.4 million words. There were approximately 693 sections of
      the I.R.C. applicable to individuals. In Calendar Year 1999, a taxpayer filing a
      U.S. Individual Income Tax Return (Form 1040) could be faced with a 79-line tax return,
      144 pages of instructions, 11 schedules totaling 443 lines (including instructions),
      19 separate worksheets embedded in the instructions, and the possibility of having to
      file numerous other forms. In Calendar Year 2005, the IRS estimated it would take
      individual taxpayers from 3 hours and 46 minutes to prepare the simplest 2004 tax
      return to over 27 hours1 to complete a more complex tax return with schedules.
      Mistakes and misinformation can easily contribute to noncompliance. The IRS
      recognizes that providing quality customer service is the first step in helping taxpayers
      achieve compliance.
      The IRS provides taxpayers the option of obtaining personal, face-to-face tax
      assistance at about 400 Taxpayer Assistance Centers (TAC). IRS employees that work
      in the TACs assist customers by interpreting tax laws and regulations, preparing certain
      individual tax returns, resolving inquiries on taxpayer accounts, accepting payments,


      1
       Included in the estimate are the Form 1040, Itemized Deductions (Schedule A), Interest and Ordinary Dividends
      (Schedule B), Capital Gains and Losses (Schedule D), and Earned Income Credit (Schedule EIC).
                                                          2

and providing various other services designed to minimize the burden on taxpayers in
satisfying their tax obligations.
The IRS suggests that taxpayers visit the TACs when they have complex tax issues,
need to resolve tax problems relating to their tax accounts, have questions about how
the tax law applies to their individual income tax returns, or feel more comfortable
talking with someone in person. The services offered at the TACs are valuable
considering the current complexity of the tax law as well as the diversity of the taxpayer
population. In addition, not all tax-related issues can be easily explained or resolved
over the telephone or through the IRS web site, IRS.gov.
Since the creation of the Field Assistance Office2 in October 2000, the IRS’ focus on its
face-to-face service has changed, but the key management information used to make
decisions and support changes is either absent or based on incomplete data. Improved
management information will be needed to help the Field Assistance Office move
toward its future goals.
The lack of accurate and complete management information hinders the IRS’ ability to
make appropriate decisions when determining the locations and services it provides
taxpayers seeking face-to-face assistance. Also, there is no assurance that the
Fiscal Year 2005 TAC Program budget of $159.2 million will be used most efficiently.
This includes $153.6 million for employees working in the TACs and $5.6 million
budgeted for management oversight of the TAC Program. This oversight includes a
Director, 4 managers, and 74 national and field analysts and technical advisors. In
addition, the IRS does not have:
•     Current data to support why the TACs are in their current locations or what services
      should be provided.
•     A management information system that provides accurate or complete information
      that identifies the number and locations of the TACs, the numbers of the various
      types of services provided at the TACs, and the costs of the TACs.
It is imperative that the IRS develop management information to ensure the locations
and types of services offered at the TACs are those most needed by its customers. As
the IRS redirects taxpayers to electronic and self-help services, it needs to know what
services taxpayers most need or want, so it can appropriately plan for and redirect its
resources.
We recommended the Commissioner, Wage and Investment Division, (1) enhance the
management information system to capture the number of taxpayers served, the
numbers and types of services provided, and the related resources (costs); (2) develop
a Service Delivery Plan for the short-term and long-term direction of the TAC Program
based on business cases and customer input; and (3) develop a process that includes
routine assessments of TAC operations to ensure the TACs are optimally located and
the services provided at the TACs are the most effective and cost efficient.

2
    The Field Assistance Office is responsible for overseeing the TAC Program.
                                              3

Management’s Response: While IRS management was pleased with our recognition
that the TACs provide a valuable service to taxpayers, they did not agree with our
conclusion that the effectiveness of the TACs cannot be measured. They are confident
the current management information systems provide sufficient information to
successfully measure Program delivery. Management also disagreed with the inference
that the IRS is shifting its focus away from customer service and toward compliance.
Lastly, management disagreed with the report’s implied contention that the Field
Assistance Office should have the capability to effect the significant physical relocation
of TACs; they believe the current IRS strategy to develop and implement multiple
delivery channels is far more responsive to taxpayer preferences and operational
realities.
However, the IRS agreed with our recommendations. The Field Assistance Office is
developing a web-based Field Assistance Office Management Information System that
will provide management with critical program planning and control information at the
local and national levels while also reducing taxpayer burden by managing wait times
more efficiently.
In addition, a new Service Delivery Model is being developed that will incorporate
population demographic data, income levels, United States Census data, and related
TAC operational costs to better inform future operational decisions. The Field
Assistance Office is also currently exploring options to obtain customer input in the
development of this Model. Data from this Model will enable the IRS to better plan,
forecast, allocate, and measure the resources used to provide service to taxpayers.
The Field Assistance Office will conduct a comprehensive assessment that uses the
new Service Delivery Model to determine the optimal location for service delivery
channels, including TAC locations. This Model will serve as the baseline to evaluate
delivery effectiveness and efficiencies. The IRS will collaborate with other Federal
Government organizations, such as the Social Security Administration, to evaluate and
incorporate their best practices into its plan. In addition, the IRS will solicit input from
Congressional and other external stakeholders on any decisions regarding TAC
locations. Management’s complete response to the draft report is included as
Appendix V.
Office of Audit Comment: Management strongly disagreed with our conclusion that the
effectiveness of the TACs cannot be measured. Management also disagreed they are
shifting their focus from customer service to compliance and the Field Assistance Office
should have the capability to effect the significant physical relocation of the TACs.
However, management agreed to take corrective actions and has already taken steps to
address each of our three recommendations. We continue to believe that key
management information used to make decisions and support changes to the TACs is
either absent or based on incomplete data as specifically discussed in the report
beginning on page 7. Improved management information will help the Field Assistance
Office move toward its future goals. We commend the IRS for initiating corrective
actions during the course of the review and that it will explore options to obtain
                                            4

customer input and collaborate with the Social Security Administration in the
development of its Service Delivery Model.
Subsequent to the completion of our audit work, the IRS Commissioner announced on
May 27, 2005, the closing of 68 TACs by Fiscal Year 2006. The IRS believes adjusting
the TACs to more closely align to the decreased walk-in volume will yield savings and
allow it the flexibility to improve efficiencies and concentrate more on front-line
enforcement. The IRS worked with a contractor to create a unique TAC Closure Model
to identify which TACs it will close. The TAC Closure Model is a data-driven model that
measures the effect of TAC closures on taxpayers across the country. We are currently
reviewing the TAC Closure Model development, including the completeness and
accuracy of the data used and assessing the ranking criteria, attributes, and business
rules used in the model. Our review results will be released later this calendar year.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
   The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured




                                                  Table of Contents


Background ............................................................................................... Page 1
Taxpayer Assistance Centers Provide a Valuable Service
to Taxpayers Wanting Face-to-Face Interaction ....................................... Page 4
Management Information Is Not Sufficient to Determine the
Effectiveness of the Program .................................................................... Page 7
         Recommendation 1: .......................................................................Page 16
         Recommendations 2 and 3: ...........................................................Page 17

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 18
Appendix II – Major Contributors to This Report ....................................... Page 20
Appendix III – Report Distribution List ....................................................... Page 21
Appendix IV – Methodology for Selecting Audit Sites ............................... Page 22
Appendix V – Management’s Response to the Draft Report ..................... Page 23
   The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

                                One of the Congress’ principal objectives in enacting the
Background
                                Internal Revenue Service (IRS) Restructuring and Reform
                                Act of 1998 (RRA 98)1 was to mandate that the IRS do a
                                better job of meeting the needs of its customers. In the
                                RRA 98, the Congress directed the IRS to achieve a better
                                balance between the prefiling2 efforts of taxpayer assistance
                                (through education and service) and the postfiling3 efforts of
                                enforcement. To comply with this Congressional mandate,
                                the IRS reorganized its functional areas and revised its
                                mission statement to refocus its emphasis on helping
                                taxpayers understand and meet their tax responsibilities.
                                As part of the IRS’ restructuring efforts, in Fiscal Year
                                (FY) 2001, the Field Assistance Office was created in the
                                IRS Wage and Investment (W&I) Division to provide
                                taxpayers the right services at the right time in the right
                                locations. The Field Assistance Office is responsible for
                                overseeing the IRS Taxpayer Assistance Center
                                (TAC) Program nationwide.
                                When created, the Field Assistance Office Design Plan
                                called for approximately 3,600 employees and
                                676 assistance sites nationwide.4 However, the budget and
                                staffing levels have never reached the levels outlined in the
                                Design Plan (see Figure 1).




                                1
                                  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                2
                                  Prefiling activities include educating and assisting taxpayers before
                                they file their tax returns, including providing information, support, and
                                assistance to help them understand and fulfill their tax obligations.
                                3
                                  Postfiling activities include working with taxpayers that have not filed
                                their required tax returns, have a delinquent tax payment, or have an
                                audit issue.
                                4
                                  These sites would include kiosks, mobile sites, and the TACs.
                                                                                                  Page 1
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

                                                      Figure 1: Field Assistance Office
                                                     Program Budget and Staffing Levels
                                                               by Fiscal Year

                                                $200                                     2,400




                                     Millions
                                                $150                                     2,250

                                                $100                                     2,100

                                                 $50                                     1,950

                                                $-                                       1,800
                                                        2001 2002 2003 2004 2005
                                                          Budget       Staffing Levels

                                                Source: IRS Field Assistance Office.

                             In a report issued in April 2001, the Joint Committee on
                             Taxation conducted a study on the complexity of the tax law
                             and found that, at that time, the Internal Revenue Code
                             (I.R.C.) consisted of nearly 1.4 million words, with
                             approximately 693 sections of the I.R.C. being applicable to
                             individuals. In Calendar Year (CY) 1999, a taxpayer filing
                             a U.S. Individual Income Tax Return (Form 1040) could be
                             faced with a 79-line return, 144 pages of instructions,
                             11 schedules totaling 443 lines (including instructions),
                             19 separate worksheets embedded in the instructions, and
                             the possibility of having to file numerous other forms.
                             In CY 2005, the IRS estimated it would take individual
                             taxpayers from 3 hours and 46 minutes to prepare the
                             simplest 2004 tax return to over 27 hours5 to complete a
                             more complex tax return with schedules. Mistakes and
                             misinformation can easily contribute to noncompliance.
                             The IRS recognizes that providing quality customer service
                             is the first step in helping taxpayers achieve compliance.




                             5
                              Included in the estimate are the Form 1040, Itemized Deductions
                             (Schedule A), Interest and Ordinary Dividends (Schedule B),
                             Capital Gains and Losses (Schedule D), and Earned Income Credit
                             (Schedule EIC).
                                                                                                 Page 2
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

                             The IRS provides taxpayers the option of obtaining
                             personal, face-to-face tax assistance at about 400 TACs.6
                             IRS employees that work in the TACs assist customers by
                             interpreting tax laws and regulations, preparing certain
                             individual tax returns, resolving inquiries on taxpayer
                             accounts, accepting payments, and providing various other
                             services designed to minimize the burden on taxpayers in
                             satisfying their tax obligations.
                                   Figure 2: Percentages and Numbers of Various Services
                                          Provided by IRS Employees at the TACs7




                             Source: IRS Field Assistance Office.

                             To confirm its commitment to customer service, the
                             IRS 2000–2005 Strategic Plan established the strategic goal
                             to “Provide Top-Quality Service to Each Taxpayer in Every
                             Interaction.” The IRS stated that, whenever it dealt with a
                             taxpayer, the taxpayer should receive first-quality service.
                             In its 2005–2009 Strategic Plan, the IRS revised its
                             customer service commitment to providing “excellent
                             service to taxpayers and enforcing America’s tax laws in a

                             6
                               On May 27, 2005, the IRS Commissioner announced the closing of
                             68 TACs by FY 2006. The IRS believes adjusting the TACs to more
                             closely align to the decreased walk-in volume will yield savings and
                             allow it the flexibility to improve efficiencies and concentrate more on
                             front-line enforcement.
                             7
                               Numbers have been rounded for report purposes.
                                                                                               Page 3
     The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

                                  balanced manner.” Its first strategic goal was changed to
                                  “Improve Taxpayer Service.” As a result, the focus of the
                                  face-to-face service offered by the TACs is moving away
                                  from information and filing assistance toward compliance
                                  and enforcement activities. In addition, the IRS is trying to
                                  offer taxpayers more options, particularly services offered
                                  electronically.
                                  The Office of Management and Budget (OMB) recently
                                  rated the IRS on taxpayer service using the Program
                                  Assessment Rating Tool (PART). The PART is a
                                  systematic method of assessing program performance across
                                  the Federal Government and is a diagnostic tool with the
                                  main objective to improve performance in agency programs
                                  and link performance to budget decisions.
                                  The Field Assistance Office, the toll-free telephone
                                  program, and the IRS web site (IRS.gov) were included in
                                  the PART rating. The OMB gave taxpayer service an
                                  adequate rating, stating that the IRS continues to have
                                  trouble with the accuracy of answers, needs long-term goals,
                                  and needs to improve its ability to determine the costs of its
                                  taxpayer service activities.
                                  This review was performed at the IRS W&I Division
                                  Headquarters in Atlanta, Georgia, and in 30 TACs located
                                  nationwide (see Appendix IV) during the period
                                  August 2004 through April 2005. The audit was conducted
                                  in accordance with Government Auditing Standards.
                                  Detailed information on our audit objective, scope, and
                                  methodology is presented in Appendix I. Major
                                  contributors to the report are listed in Appendix II.
                                  The IRS suggests that taxpayers visit the TACs when they
Taxpayer Assistance Centers
                                  have complex tax issues, need to resolve tax problems
Provide a Valuable Service to
                                  relating to their tax accounts, have questions about how the
Taxpayers Wanting Face-to-Face
                                  tax law applies to their individual income tax returns, or feel
Interaction
                                  more comfortable talking with someone in person. The IRS
                                  describes the TACs as a place where taxpayers can spread
                                  out their records and talk to IRS representatives across the
                                  counter. The services offered at the TACs are valuable
                                  considering the current complexity of the tax law as well as
                                  the diversity of the taxpayer population. In addition, not all
                                  tax-related issues can be easily explained or resolved over


                                                                                          Page 4
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

                             the telephone or through IRS.gov, and some taxpayers just
                             prefer the face-to-face service the TACs offer.8
                             Providing the wide range of services taxpayers have come to
                             expect from the TACs presents challenges for the IRS and
                             its TAC employees. Limited resources, the complexity of
                             the tax law, and the need to assist millions of taxpayers
                             require the IRS to limit TAC services. For example,
                             TAC employees are not trained to answer all tax questions
                             on all tax topics. Instead, they are required to refer
                             taxpayers to an IRS toll-free telephone number or to submit
                             the questions in writing to subject-matter experts via the
                             Internet or through correspondence. The TACs do not offer
                             taxpayer account transcripts to customers and limit the
                             preparation of tax returns to those under a certain income
                             limit ($36,000 for CY 2005).
                             TAC employees must be versatile in their knowledge of tax
                             law and tax administration. They are expected to be
                             knowledgeable in 318 tax law topics with 395 subtopics, to
                             respond to taxpayer issues for the current and prior years,
                             and to be proficient in the IRS’ main computer system to
                             ensure they can resolve tax account issues. TAC employees
                             must be ready to:
                             •   Accept cash and checks in payment for taxes due and
                                 set up installment agreements and payment plans for
                                 taxpayers that owe taxes and cannot pay the full
                                 amounts.
                             •   Answer taxpayer questions ranging from exemptions,
                                 dependents, and deductions to the estimated tax penalty,
                                 an issue so complex that the IRS, in the Instructions for
                                 Form 2210, Underpayment of Estimated Tax by
                                 Individuals, Estates, and Trusts, strongly encourages
                                 taxpayers to let the IRS figure the penalty for them.
                             •   Prepare current and prior year tax returns for individual
                                 taxpayers, from the simplest tax returns to ones with the
                                 Earned Income Tax Credit, the Child Tax Credit, and
                                 itemized deductions.
                             •   Assist with levies on wages or bank accounts.


                             8
                              W&I Division Research function presentation, How Far Are People
                             Willing to Drive for a Service, issued August 2002.
                                                                                        Page 5
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

                             •   Review, interpret, and assist in resolving issues detailed
                                 in various IRS letters and notices.
                             In addition, TAC employees have recently become actively
                             involved in the IRS’ enforcement efforts by focusing on
                             face-to-face compliance activities and working delinquent
                             taxpayer cases. The addition of this work requires
                             TAC employees to be trained in intricate collection laws and
                             regulations, requiring different skills and a change in
                             perspective from assistance to enforcement.
                             The TACs also offer appointments and multilingual
                             assistance. Taxpayers can call the TACs’ local telephone
                             numbers and request appointments to meet with
                             knowledgeable IRS representatives to resolve their tax
                             account issues. For taxpayers that do not speak English, the
                             TACs provide the use of a telephone that accesses
                             interpreter services for more than 150 languages.
                             Although the majority of services provided at the TACs are
                             offered through IRS.gov, published materials, and the
                             toll-free telephone lines, data show taxpayers want
                             face-to-face service. For example:
                             •   An IRS attitudinal survey conducted of TAC customers
                                 in 19999 reported that taxpayers wanted face-to-face
                                 assistance even though there are alternative means for
                                 the same services. The research study concluded that
                                 there are taxpayers who seek face-to-face assistance and
                                 will never be diverted to alternate methods of contact.
                             •   The IRS Oversight Board’s 2004 Taxpayer Attitude
                                 Survey shows the most valuable source of tax
                                 information and advice within the IRS is
                                 IRS representatives. Ninety percent of the customers
                                 surveyed stated visiting an office location where an IRS
                                 representative could answer a question was very
                                 important or somewhat important.
                             •   The National Taxpayer Advocate 2004 Annual Report to
                                 Congress indicated the TACs provide a valuable service
                                 and raised concerns about any services provided at the
                                 TACs being limited or eliminated.


                             9
                               Walk-In Taxpayer Demographic & Attitudinal Profile Project 2.02,
                             issued March 2000.
                                                                                           Page 6
    The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

                                  Since the creation of the Field Assistance Office in
Management Information Is
                                  October 2000, the IRS’ focus on its face-to-face service has
Not Sufficient to Determine the
                                  changed, but the key management information used to make
Effectiveness of the Program
                                  decisions and support changes is either absent or based on
                                  incomplete data. Improved management information will
                                  be needed to help the Field Assistance Office move toward
                                  its future goals.
                                  As the Field Assistance Office Program shifts from
                                  educating and assisting taxpayers in prefiling activities to
                                  providing more postfiling activities, it is encouraging
                                  taxpayers to use self-help and electronic services, such as
                                  those provided by IRS.gov and the toll-free telephone lines.
                                  The Field Assistance Office Concept of Operations
                                  (CONOPS) provides the vision for “Helping Taxpayers
                                  Help Themselves” and supports E-government.10 The
                                  CONOPS outlines plans to offer self-help mechanisms and
                                  technology-driven services, including kiosks and virtual
                                  TACs.11
                                  However, the lack of accurate and complete management
                                  information hinders the IRS’ ability to make appropriate
                                  decisions when determining the locations and services it
                                  provides taxpayers seeking face-to-face assistance. In
                                  addition, there is no assurance that the FY 2005 TAC
                                  Program budget of $159.2 million12 will be used most
                                  efficiently. This includes $153.6 million for employees
                                  working in the TACs and $5.6 million budgeted for
                                  management oversight of the TAC Program. This oversight
                                  includes a Director, 4 managers, and 74 national and field
                                  analysts and technical advisors.
                                  The FY 2006 IRS budget calls for substantial budget cuts to
                                  customer service, and current plans call for closing a
                                  number of the TACs. Without improvements, the IRS will
                                  be unable to ensure its limited TAC resources are used


                                  10
                                     E-government is one of the five Federal Government-wide initiatives
                                  of the President’s Management Agenda.
                                  11
                                     A virtual TAC provides all services electronically; is self-help; and
                                  has a computer, telephone, and/or kiosk so taxpayers can help
                                  themselves.
                                  12
                                     This cost includes salaries, benefits, overtime, awards, premium pay,
                                  and accrued leave for departing employees. It also includes all of the
                                  support costs such as travel, training, supplies, services, relocation,
                                  enforcement, and equipment.
                                                                                                   Page 7
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

                             effectively to deliver the most-needed services to the largest
                             number of taxpayers.
                             There are no current data to support why the TACs are
                             in their current locations or if the locations are the most
                             optimal
                             The TACs are currently in the same locations they were in
                             when the Field Assistance Office took ownership of the
                             TAC Program in October 2000. IRS management stated the
                             budget drives the decision to keep the TACs in their current
                             locations. Further, because of Congressional resistance to
                             closing or relocating TACs, they have not conducted any
                             studies to determine if TACs should be closed or relocated.
                             Before the Field Assistance Office officially began
                             operations in October 2000, TAC locations were based on
                             the IRS’ prior structure, which included geographic
                             boundaries of regions and districts. In 2001, the IRS and an
                             independent contractor developed the Field Assistance
                             Office Design Plan, which was followed by the Service
                             Delivery Model and the CONOPS. These documents varied
                             in target population goals, types of sites (from mobile sites
                             to kiosks), and numbers of sites.
                             The Field Assistance Office could not provide data or
                             research results supporting the actions and
                             recommendations included in the Design Plan and the
                             Service Delivery Model. In November 2004, Field
                             Assistance Office management informed us they were no
                             longer using the Service Delivery Model. They explained
                             that the information contained in the Service Delivery
                             Model was never validated and funding had not been
                             provided to meet goals established. Management indicated
                             they are working with the W&I Division Research function
                             to develop a new Model.
                             With the assistance of the W&I Division Research function,
                             the Field Assistance Office developed the Planning and
                             Allocation Model and the Field Assistance Resource
                             Database Model databases. The information from both
                             databases will eventually be incorporated into a new
                             Field Assistance Office Service Delivery Model, with
                             implementation anticipated at the end of FY 2005.
                             The IRS did provide information regarding the process
                             followed for developing its CONOPS. To develop the
                                                                                    Page 8
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

                             CONOPS, the IRS used data from four different studies,
                             including the IRS attitudinal survey conducted in 1999 and
                             a study to determine how customers define good service and
                             consumer preferences for a variety of types of customer
                             service. The Field Assistance Office staff also met with
                             other IRS employees to discuss the reports as well as the
                             results of various internal studies.
                             Although information from the studies was cited in
                             developing the CONOPS, it does not appear the IRS
                             conducted specific data research or obtained input from
                             those taxpayers that seek face-to-face assistance. Without
                             this information, the IRS cannot be assured that the
                             CONOPS is driving the IRS to make the right decisions on
                             what face-to-face services taxpayers need or want.
                             There are no current data to support what services
                             should be provided at the TACs
                             Although a number of studies have been conducted by the
                             W&I Division to identify its present and future customer
                             base, the Field Assistance Office has not recently conducted
                             similar studies to identify the specific characteristics of
                             customers who seek face-to-face assistance as well as the
                             services they desire. Research performed since 1999 has
                             focused primarily on learning about customer expectations
                             and ways to improve the taxpayer experience when visiting
                             the TACs.
                             Taxpayers that need or desire face-to-face assistance have
                             not been involved in determining what services are offered
                             at the TACs. Management indicated the identification of
                             the services offered at the TACs has been based primarily
                             on input from Field Assistance Office field management.
                             Other factors affecting the services provided include internal
                             priorities, resource demands, and shifts in the IRS’ customer
                             service perspective. For example:
                             •   Beginning in October 2003, the Field Assistance Office
                                 stopped providing account transcripts to taxpayers,
                                 unless there is an extreme hardship. This decision was
                                 made to shift TAC resources from printing transcripts to
                                 assisting taxpayers that have tax problems requiring
                                 face-to-face assistance. Taxpayers can order transcripts
                                 by calling the IRS toll-free telephone number.

                                                                                    Page 9
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

                             •   Beginning in FY 2003, the Field Assistance Office
                                 began an initiative to reduce tax return preparation
                                 assistance in the TACs by 20 percent each year. This
                                 decision was based on the IRS’ desire to redirect
                                 TAC resources to other face-to-face services that can be
                                 provided only in a TAC.
                             No documentation was provided that identifies why either
                             of these services is being eliminated or reduced. Customer
                             input or demand was not factored into the decisions.
                             Currently, the Field Assistance Office obtains customer
                             feedback via its customer satisfaction survey. The survey is
                             completed by taxpayers that actually visit a TAC and is used
                             to measure customer satisfaction immediately after the
                             taxpayer receives the service. The types of questions asked
                             are limited because of the size of the survey card. The
                             National Taxpayer Advocate (NTA) expressed a concern
                             that the current survey may result in an overstatement of
                             positive customer feelings about TAC locations and service
                             hours because the survey is applicable only to customers
                             getting service. The NTA believes there should be a survey
                             conducted outside of the TACs; it should be more detailed;
                             and it should capture the taxpayers’ needs, rather than just
                             their experiences within the TACs.
                             The current management information system does not
                             provide accurate or complete information
                             During this audit, the Field Assistance Office listings of
                             open TACs were inconsistent and inaccurate. The Field
                             Assistance Office provided five different listings
                             representing the number of open and closed TACs and their
                             locations (see Figure 3).




                                                                                  Page 10
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

                             Figure 3: Listings of the TACs Provided During This Review




                                        Source: IRS Field Assistance Office.

                             In March 2005, when we presented the above discrepancies
                             to IRS officials, Field Assistance Office management
                             acknowledged that the information provided to us had been
                             inconsistent. In an April 1, 2005, meeting, they explained
                             that some of the inconsistencies resulted from a
                             misunderstanding on our part of how the Field Assistance
                             Office defined open and closed TACs.
                             As of April 1, 2005, IRS officials informed us that there
                             were 407 TACs—400 TACs open and providing services to
                             the public and 7 considered “abandoned.” Abandoned
                             TACs are not staffed, provide no customer service, are not
                             officially closed, but are included in the listing of open
                             TACs. The IRS is continuing to pay rent for the seven
                             abandoned TACs, but no employees are working in those
                             offices. In addition to the 407 open (and abandoned) TACs,
                             there are 13 TACs considered officially closed.
                             The Field Assistance Office’s management information
                             system does not track costs by TAC. Staffing costs are
                                                                                     Page 11
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

                             captured for the Field Assistance Program as a whole and by
                             TAC. However, management information does not include
                             other Program operating costs, such as rent, utilities, or
                             equipment. Management advised us they are currently
                             working with responsible IRS functions to obtain the
                             operating costs for each TAC.
                             In addition, workplans used before FY 2004 to determine
                             staffing needs were inaccurate and incomplete. Although
                             we did not conduct testing on the workplan data, we were
                             advised by IRS analysts that the data supporting the
                             FYs 2002 and 2003 workplans were sketchy and poor, but
                             the data for FY 2004 were significantly improved and under
                             development.
                             During our review, Field Assistance Office management
                             stated they have begun to work with the W&I Division
                             Research function to develop a Field Assistance Office
                             workplan that will use information to statistically forecast
                             the appropriate staffing in the TACs to correspond with the
                             demands of Field Assistance Office customers. This
                             forecasting model will allow the Field Assistance Office to
                             determine the best location(s) for any additional future
                             TAC(s), since all the workplan information will be tied to a
                             Service Delivery Model. This will ensure the Field
                             Assistance Office’s ability to meet taxpayer demands. The
                             forecasting model will allow the IRS to determine where
                             specific assistance may be needed, based on language, age,
                             and income levels.
                             The Field Assistance Office’s current management
                             information system does not provide an adequate picture of
                             all services provided at the TACs. As detailed in one of our
                                                          prior audit reports,13 data
                                                          captured on the Field Assistance
                                                          Office’s management
                                                          information system cannot be
                                                          relied upon for timely, accurate
                                                          workload performance
                                                          information due to the manual
                                                          process of recording taxpayer


                             13
                               Trends in Customer Service in the Taxpayer Assistance Centers
                             Continue to Show Procedural Causes for Inaccurate Answers to Tax
                             Law Questions (Reference Number 2003-40-158, dated August 2003).
                                                                                      Page 12
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

                             visits. The Field Assistance Office extracts daily
                             information from reports generated from three systems, the
                             automated queuing system called the Queuing Management
                             System (Q-MATIC) and two manual systems. According to
                             the IRS, these data are the basis to support staffing,
                             Program, and budget decisions for the TACs.
                             Once taxpayers are in the TAC, they and/or Field Assistance
                             Office employees use the Q-MATIC to select the type of
                             assistance required. Prior audit results show that IRS
                             employees do not always input the information.
                             Consequently, the IRS’ estimation of the number of
                             taxpayers visiting the TACs could be significantly
                             understated.
                             In addition, only one service per customer is recorded. The
                             current management information system does not collect the
                             total number of services provided to taxpayers; it captures
                             only the most significant service provided to each taxpayer.
                             In cases where multiple services are provided to the same
                             taxpayer, guidelines direct the TAC employees to record the
                             service they believe was the most significant provided to the
                             taxpayer. This is usually based on the amount of time spent
                             assisting the taxpayer with a specific service.
                             The Field Assistance Office’s current management
                             information system does not capture all services provided
                             at the TACs, and TAC employees inconsistently record
                             services. For example:
                             •   An analysis of an extract of system data for FY 2004
                                 showed no tax returns were prepared in the state of
                                 California.
                             •   One TAC counts one taxpayer and one service if a
                                 taxpayer asks the employee where a form is or what
                                 form to use. Another TAC does not record this service.
                             •   One TAC counts multiple payments from one taxpayer
                                 as one service and one taxpayer. Another TAC counts
                                 each separate payment as a separate service and a
                                 separate taxpayer.
                             In addition, little or no validation is done to ensure the
                             management information system data are accurate. A
                             review of the data used to prepare the FY 2004 workplan
                             showed a discrepancy of approximately 1 million taxpayers
                                                                                  Page 13
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

                             when compared with actual FY 2004 totals. This happened
                             because the current Field Assistance Office workplan
                             process is a manual process that limits the ability to update
                             completed fiscal year data, even when new information
                             becomes available. The Field Assistance Office is working
                             on a new model that will provide the capability to enhance
                             projections based on actual fiscal year data, ensuring
                             consistency in forecasting.
                             An inconsistency also results when comparing TAC
                             services to the IRS’ toll-free telephone services. This
                             happens because of inconsistency in the way the two
                             Programs count taxpayers and services. When the IRS
                             measures quality on the toll-free telephone lines, it counts
                             services provided, not the number of taxpayers that call the
                             toll-free telephone lines. If a taxpayer calls with one tax law
                             question, one account question, and a third question relating
                             to getting a tax form, the IRS counts that as three services
                             provided. If the same taxpayer walks into a TAC for the
                             same services, only one of the three services provided is
                             counted.
                             The inconsistency in the counting of services provided
                             creates a misconception of the true services the TACs
                             provide taxpayers. The Field Assistance Office stated that it
                             does not track multiple services provided to those taxpayers
                             requesting more than one service for two reasons. First,
                             TAC employees would have to manually input the multiple
                             services provided. Second, counting taxpayers was
                             consistent with how other IRS business units and functions
                             track services.
                             The Social Security Administration (SSA) may serve as a
                             best practice for the IRS when developing a service delivery
                             process. The SSA has become a President’s Management
                             Agenda leader and is focused on producing results for the
                             American public by improving service and stewardship.
                             The SSA faces many of the same challenges as the IRS,
                             such as struggling to increase the availability of various
                             types of electronic services. However, as the SSA increases
                             the number of services offered electronically, it has
                             continued to maintain the same level of service to customers
                             seeking face-to-face assistance.
                             Discussion with the SSA identified ongoing efforts to
                             deliver service to the public. The SSA routinely conducts
                                                                                    Page 14
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

                             service delivery assessments (at least every 5 years). These
                             assessments require each field office to perform a service
                             delivery analysis, consisting of demographic data, workload
                             data, availability and use of public transportation, quality of
                             roads, geographic barriers, economic conditions, etc. The
                             assessment may be triggered by certain events, such as
                             workload increase, population trends and demographic
                             shifts, staffing changes or imbalances, and lease or space
                             considerations. The assessments are performed to ensure
                             the SSA field sites are in the most effective geographical
                             areas.
                             The SSA also conducts surveys of the public on a regular
                             basis, performing all design and analysis functions in-house
                             and using vendors for telephone interviewing or printing
                             and mail handling. The SSA surveys cover areas such as
                             satisfaction with employee performance, clarity of oral
                             explanations, preferences for doing business, and what
                             services are most important to the customer. The SSA also
                             conducts focus groups and is always looking for ways to
                             improve or expand its services.
                             The inability to measure the effectiveness of the
                             TAC Program limits the IRS’ ability to make sound
                             business decisions
                             Limited resources, the complexity of the tax law, and the
                             need to assist millions of taxpayers require the IRS to limit
                             TAC services. Therefore, it is imperative that the IRS
                             develop management information to ensure the locations
                             and types of services offered at the TACs are those most
                             needed by its customers. As the IRS redirects taxpayers to
                             electronic and self-help services, it needs to know what
                             services taxpayers most need or want, so it can
                             appropriately plan for and redirect its resources. Until
                             accurate and complete management information is available,
                             management does not have all the data needed to make
                             sound business decisions.
                             If improvements are not made, the IRS’ TAC Program will
                             be unable to meet the requirements set forth by Executive
                             Order 12862, “Setting Customer Service Standards.” This
                             Executive Order defines a customer as an individual who is
                             directly served by a department or agency and also sets
                             requirements for each Federal Government agency to
                             identify and survey its customers, post service standards and
                                                                                    Page 15
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

                             measure results against them, and benchmark customer
                             service against the best in the business.
                             The Government Performance and Results Act of 199314
                             directs Federal Government agencies to focus on their
                             missions and goals, how to achieve them, and how to
                             improve their structural organizations and business
                             processes. Performance measures need to be based on
                             program-related characteristics and performance data and
                             must be sufficiently complete, accurate, and consistent.
                             Performance data must be used to improve organizational
                             processes, identify performance gaps, and set improvement
                             goals.

                             Recommendations

                             The Commissioner, W&I Division, should:
                             1. Enhance the management information system to capture
                                the number of taxpayers served, the numbers and types
                                of services provided, and the related resources (costs).
                                The system should include controls to ensure the data
                                are reliable (i.e., complete, accurate, and consistent).
                             Management’s Response: IRS management agreed that
                             improving their management information system is critical
                             to improved operational performance. The Field Assistance
                             Office is developing a web-based Field Assistance Office
                             Management Information System (FAMIS), which will
                             provide management with critical program planning and
                             control information at the local and national levels while
                             also reducing taxpayer burden by managing wait times more
                             efficiently. The FAMIS will be tested in FY 2006 and
                             deployed in all TACs during FY 2007.
                             Enhancements to capture multiple services provided to
                             customers would require a technology solution that,
                             management believes, is cost prohibitive at this time.
                             However, management believes the FAMIS will provide
                             adequate detailed information about the types of services
                             provided in the TACs.



                             14
                               Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered
                             sections of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).
                                                                                           Page 16
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

                             In addition, as the new Service Delivery Model is
                             developed, it will incorporate population demographic data,
                             income levels, United States (U.S.) Census data, and related
                             TAC operational costs to better inform future operational
                             decisions. Data from this Model will enable the IRS to
                             better plan, forecast, allocate, and measure the resources
                             used to provide service to taxpayers.
                             2. Develop a Service Delivery Plan for the short-term and
                                long-term direction of the TAC Program based on
                                business cases and customer input.
                             Management’s Response: The IRS agreed with this
                             recommendation. The Field Assistance Office is currently
                             exploring options to obtain customer input in the
                             development of its Service Delivery Model. This will
                             include working with the SSA and various W&I Division
                             functions to determine the scope and method of obtaining
                             taxpayer feedback on TAC services and to enhance the
                             Model to incorporate items such as population
                             demographics, income levels, U.S. Census data, and
                             delivery costs.
                             3. Develop a process that includes routine assessments of
                                TAC operations to ensure the TACs are optimally
                                located and the services provided at the TACs are the
                                most effective and cost efficient.
                             Management’s Response: The IRS disagreed with the
                             report’s implied contention that it should have the capability
                             to effect the significant physical relocation of the TACs; it
                             believes the current IRS strategy to develop and implement
                             multiple delivery channels is far more responsive to
                             taxpayer preferences and operational realities. However, the
                             IRS agreed with this recommendation.
                             The Field Assistance Office will conduct a comprehensive
                             assessment that uses the new Service Delivery Model to
                             determine the optimal location for service delivery channels,
                             including TAC locations. This Model will serve as the
                             baseline to evaluate delivery effectiveness and efficiencies.
                             The IRS will collaborate with other Federal Government
                             organizations, such as the SSA, to evaluate and incorporate
                             their best practices into its plan. In addition, the IRS will
                             solicit input from Congressional and other external
                             stakeholders on any decisions regarding TAC locations.
                                                                                   Page 17
      The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

                                                                                        Appendix I


                            Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the effectiveness of the process the Internal
Revenue Service (IRS) uses to determine the types, times, and locations of services it provides
taxpayers that seek face-to-face assistance. To accomplish our objective, we:
I.         Assessed the effectiveness of the Field Assistance Office process for determining the
           types of services provided at the Taxpayer Assistance Centers (TAC).1
           A. Interviewed representatives from the Field Assistance Office to discuss the process
              followed for determining the types of services provided at the TACs.
           B. Determined internal factors that contribute to the decision about the types of services
              provided at the TACs, including transition of resources from assistance to compliance
              work.
           C. Determined external factors that contribute to the decision about the types of services
              provided at the TACs, including taxpayer feedback.
           D. Obtained and reviewed IRS guidelines to determine what standard services are
              offered at the TACs.
           E. Independently confirmed the services provided at the TACs.
           F. Visited a judgmental sample of 30 TACs to discuss the services offered, ensuring we
              selected a TAC in each of the Field Assistance Office’s 5 geographical Areas. We
              selected the TACs based on (1) the locations relative to the audit team’s Treasury
              Inspector General for Tax Administration office, (2) the economic characteristics of
              the particular areas where the TACs were located, (3) the populations of taxpayers in
              the vicinities of the TACs, and (4) resources. We did not select a statistical sample
              because we did not plan to project results.
           G. Obtained and reviewed data from the IRS management information system to identify
              the volumes of taxpayers and the types of services being sought by taxpayers that
              visit the TACs.
           H. If the process followed for determining the types of services provided at the TACs
              was not effective, determined the effect on taxpayers.




1
    The Field Assistance Office is responsible for overseeing the TAC Program.
                                                                                              Page 18
       The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

II.       Assessed the Field Assistance Office process for determining where to locate face-to-face
          assistance.
          A. Interviewed representatives from the Field Assistance Office to discuss the process
             followed for determining where to locate face-to-face assistance, as well as the effect
             future plans for virtual TACs2 and kiosks will have on identifying locations.
          B. Determined internal and external factors that affect where face-to-face assistance will
             be provided.
III.      Contacted the Social Security Administration to discuss what process it uses to determine
          the types, times, and locations of services it provides its customers that seek face-to-face
          assistance. We selected the Social Security Administration because it was another
          Federal Government agency that services the American public through local offices.
IV.       Determined what effect the locations of the TACs have on the Field Assistance Office
          budget formulation process.




2
  A virtual TAC provides all services electronically; is self-help; and has a computer, telephone, and/or kiosk so
taxpayers can help themselves.
                                                                                                              Page 19
   The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

                                                                                Appendix II


                           Major Contributors to This Report

Michael Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Randee Cook, Director
Russell Martin, Audit Manager
Lena Dietles, Lead Auditor
Grace Terranova, Senior Auditor
Robert Baker, Auditor
Jerry Douglas, Auditor
Roberta Fuller, Auditor
Tom Joyner, Manager, Information Technology Specialist
Joseph Butler, Information Technology Specialist
Kevin O’Gallagher, Information Technology Specialist
Layne Powell, Information Technology Specialist
Ron Stuckey, Information Technology Specialist




                                                                                      Page 20
   The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

                                                                               Appendix III


                                 Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
   SE:W:CAR
Acting Director, Strategy and Finance, Wage and Investment Division SE:W:S
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
   Division SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Acting Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 21
       The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

                                                                                                  Appendix IV


                               Methodology for Selecting Audit Sites

We judgmentally selected 30 Taxpayer Assistance Centers (TAC) from the 5 Wage and
Investment Division geographical areas. Our selection was based on the TAC’s location relative
to our home office, the economic characteristics of a particular area in which the TAC was
located, and the population of taxpayers in the vicinity of the TAC.

                                            TACs Visited During the Review
    Area 1 (Survey Phase)         Area 2                  Area 3                 Area 4               Area 5
                                                                       1
Hartford, Connecticut       Chicago, Illinois       Atlanta, Georgia       Austin, Texas        Oakland, California
                            Downers Grove,          Baton Rouge,           Corpus Christi,      San Francisco,
Waterbury, Connecticut
                            Illinois                Louisiana              Texas                California
                            Merrillville,           Lafayette,                                  San Jose,
Portland, Maine                                                            San Antonio, Texas
                            Indiana                 Louisiana                                   California
                                                    New Orleans,                                Santa Rosa,
Boston, Massachusetts       Columbus, Ohio
                                                    Louisiana                                   California
                                                    Columbus,
Brockton, Massachusetts     Lima, Ohio
                                                    Mississippi
Worcester,                                          Hattiesburg,
Massachusetts                                       Mississippi
Manchester,
New Hampshire
Portsmouth,
New Hampshire
Brooklyn, New York2
New York, New York
(Harlem)
New York, New York
(Manhattan)
Providence,
Rhode Island
Source: Treasury Inspector General for Tax Administration TAC selection.




1
    The Atlanta, Georgia, TAC maintains a compliance inventory.
2
    The Brooklyn, New York, TAC maintains a compliance inventory.
                                                                                                             Page 22
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured

                                                                    Appendix V


                Management’s Response to the Draft Report




                                                                         Page 23
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured




                                                                         Page 24
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured




                                                                         Page 25
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured




                                                                         Page 26
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured




                                                                         Page 27
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured




                                                                         Page 28
The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured




                                                                         Page 29
